   INTERNAL CONTROLS OVER THE
    EMERGENCY DISASTER RELIEF
TRANSPORTATION SERVICES CONTRACT
     Office of the Secretary of Transportation

          Report Number: AV-2006-032
          Date Issued: January 20, 2006
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Internal Controls                        Date:    January 20, 2006
           Over the Emergency Disaster Relief
           Transportation Services Contract
           Office of the Secretary of Transportation
           AV-2006-032

  From:    David A. Dobbs                                          Reply to
                                                                   Attn. of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits
    To:    Acting Director, Office of Intelligence,
            Security, and Emergency Response

           This is the first in a planned series of reports to assess internal controls over the
           emergency disaster relief transportation services contract with Landstar Express
           America, Inc. Under the Federal Government’s National Response Plan, the
           Department of Transportation is responsible for coordinating and providing
           Federal and civil transportation support, as directed by the Federal Emergency
           Management Agency (FEMA) during times of national emergency. The Office of
           Intelligence, Security, and Emergency Response coordinates those efforts within
           the Department.

           To support the Department’s responsibilities during national emergencies, the
           Federal Aviation Administration’s (FAA) Southern Region awarded a contract to
           Landstar in 2002 to provide the bulk of transportation services designated to the
           region by FEMA. When activated during national emergencies, FAA’s Southern
           Region Emergency Transportation Center, with support from FAA contracting
           personnel, coordinates activities of the contract under the direction of FEMA.
           Among the services provided by Landstar are transportation of commodities such
           as water, ice, and food to disaster distribution sites and the transport of people to
           and from hurricane-affected areas.
                                                                                  2


The objectives of our review are to determine if FAA Southern Region’s internal
controls over the contract are sufficient to ensure that (1) prices paid by the
Government are fair and reasonable given the nature of the emergency services
provided and (2) the Government received the goods and services it paid for. We
did not assess the policies, procedures, or systems used by the contractor. We
visited FAA’s Southern Region the weeks of October 10, 2005, October 24, 2005,
and November 28, 2005, as part of this assessment.


RESULTS IN BRIEF
In the aftermath of Hurricane Katrina, the immediate transportation of vital
supplies and people to and from hurricane-affected areas was critical to save lives.
The circumstances surrounding that disaster were both dire and extraordinary, and
FAA Southern Region management and the contractor provided an unprecedented
response to the crisis as it unfolded. For example, in the aftermath of the
hurricane the Emergency Transportation Center and Landstar arranged for over
11,000 trucks to move more than 14,000 truckloads of goods.

The purpose of our assessment is to identify opportunities for improving
administration of the contract during future emergencies, regardless of who or
what entity within the Department of Transportation may have ultimate
responsibility for the contract. We are in the preliminary stages of our assessment
but had two observations during our initial site visits, which FAA Southern
Region management took immediate actions to address.

   • First, contracting officers needed better information to evaluate contractor
     price quotes. During our initial visits, we observed that estimated price
     quotes were accepted by FAA without requesting documentation from the
     contractor showing that the prices were fair and reasonable. Price quote
     comparisons are important because there are no fixed prices associated with
     this contract and each task is separately bid. FAA Southern Region
     management took corrective action and now receives copies from Landstar
     of its subcontractor price quotes for each service bid, as well as Landstar’s
     justification for its selection.

      We observed that this process had been implemented and was being
      followed for initial disaster relief services after Hurricane Wilma.
      However, in our opinion, this is only an interim solution. The Department
      needs to establish a benchmark of quotes for certain services to compare
      future price quotes against before the next emergency.
                                                                              3


   We recommended that the Department conduct a detailed market survey to
   establish a baseline of prices for various transportation services to use
   during the next emergency.

• Second, better documentation of the actual amount of goods or services
  provided was needed before authorizing invoices for payment. At the time
  of our initial visits, only 6 tasks (out of approximately 570) had invoices
  from the contractor that had been paid, and those were only partial
  payments. However, the partial payments made on those tasks resulted in
  an overpayment to the contractor of approximately $33 million, which was
  promptly repaid.

   During our initial site visit, we met with the senior contracting officer and
   inquired about documentation used to support invoices. The senior
   contracting officer subsequently requested documentation from Landstar
   regarding the partial payments made to date. Landstar compiled the
   requested documentation, which showed that the actual services required by
   FEMA and the resulting costs actually incurred were less than originally
   envisioned.

   For example, one task (to provide buses for evacuating victims from
   New Orleans) resulted in an overpayment to the contractor of
   approximately $32 million. This occurred because the initial quote and
   partial payments were based on initial task estimates of providing
   approximately 1,100 buses per day at a cost of over $5,000 per bus per day.
   Ultimately, the cost per bus (approximately $1,550 per day) and the number
   of buses actually required by FEMA (approximately 400 buses per day, on
   average) were significantly less than originally envisioned when the partial
   payment was made by FAA without documentation to support the amount
   of services actually provided to date.

   We recognize that the circumstances surrounding the services that were
   needed for evacuating hurricane victims from New Orleans were
   extraordinary. However, the nature of those types of exigencies illustrates
   the need for careful and thorough review of all associated paperwork after
   the emergency has passed. The example of the bus services in
   New Orleans underscores the need to ensure that all pending invoices are
   accompanied by some type of documentation that substantiates that the
   goods and services were provided as billed. In this instance, actions taken
   by the contractor to provide the requested documentation identified the
   overpayment and led to the prompt recovery of funds.
                                                                                 4


      The contract specifically allows the contracting officer to require the
      contractor to provide documentation for the goods and services actually
      provided. Given the nature of the exigencies, we believed it was necessary
      for FAA Southern Region management to establish that requirement as a
      standard policy and require documentation for all goods and services
      actually provided as a prerequisite to payment for future invoices.

      We raised our concerns about establishing this policy to the attention of
      FAA Southern Region management on October 26, 2005, which took
      immediate action. On October 27, 2005, the Manager of the Acquisitions
      Branch for the Southern Region Logistics Division issued a directive
      requiring that either all invoices from the contractor be certified by
      Government personnel who can verify that the work was performed or the
      contracting officer must obtain proof of delivery from the contractor for the
      goods or services billed.

      Those actions should significantly improve controls over forthcoming
      payments. However, in our opinion, a process needs to be established that
      links the payment of invoices to receiving documentation certified by
      Government personnel at the point where the service was provided. While
      we are making no recommendations at this time, we plan to further review
      this issue as we continue our internal control assessment.

We provided the Office of the Secretary of Transportation (OST) with a copy of
our draft management advisory on November 30, 2005. On December 15, 2005,
OST provided us with its formal response to our draft, which is contained in its
entirety in the Appendix. In general, OST agreed with the findings and facts as
discussed in our report and proposed alternative corrective actions to address our
recommendation. Our recommendation and OST’s response can be found on
pages 10 and 11 of this report.


BACKGROUND
Under the Federal Government’s National Response Plan, the Department of
Transportation is responsible for coordinating and providing Federal and civil
transportation support, as directed by FEMA, during times of national emergency.
To support those efforts, FAA’s Southern Region awarded a contract to Landstar
in 2002 to provide the bulk of transportation services designated to the region by
FEMA. When activated during national emergencies, FAA’s Southern Region
Emergency Transportation Center, with support from FAA contracting personnel,
coordinates activities of the contract under the direction of FEMA.
                                                                                                           5


The 4-year competitively awarded contract with Landstar Express America, Inc.,
provides nationwide transportation, logistical support, and other services to meet
the Department’s emergency transportation requirements. Among the services
provided by Landstar are transportation of commodities such as water, ice, and
food to disaster distribution sites and the transport of people to and from
hurricane-affected areas. The following narrative describes the flow of events
currently used to administer the Emergency Transportation Services Contract.

     • To activate the contract, the Emergency Transportation Center must first
       receive a Mission Assignment from FEMA. A Mission Assignment
       notifies the Emergency Transportation Center that a service or delivery of
       goods in support of relief efforts will be needed. It also establishes
       obligation limits in support of these efforts.

     • FEMA then submits tasks orders off the Mission Assignment to the
       Emergency Transportation Center that require specific actions to be taken,
       such as arranging for trucks to deliver water to a local distribution point.

     • The Emergency Transportation Center reviews each task order and then
       forwards it to Landstar for a price quote on the needed services. There are
       no fixed prices associated with the contract, and each task is separately bid.

     • For each task order, Landstar solicits bids from transportation
       subcontractors and sends an initial price quote to the Emergency
       Transportation Center for performing the task. 1 This quote is reviewed and
       approved by a contracting officer.

     • Once the quote is approved, Landstar authorizes the selected subcontractors
       to perform the work required under the task.

     • When the work is complete, Landstar submits a final quote to the
       Emergency Transportation Center for the work actually performed. This
       final quote is reviewed and approved by a contracting officer.

     • During the relief efforts for Hurricane Katrina, once the final quote was
       approved, the Emergency Transportation Center would then prepare a
       purchase requisition for the service provided and include the final quote as
       the price of the service. The purchase requisition was then sent to a
       contracting officer, who prepared the purchase order that was sent to
       Landstar.



 1
     The contract requires Landstar to perform at least 15 percent of all services using its own assets.
                                                                                 6


      However, in response to our October 12, 2005 memorandum to the
      Assistant Secretary for Budget and Programs regarding the accounting and
      financial reporting of related hurricane costs, this portion of the process
      changed beginning with Hurricane Wilma emergency relief efforts. FAA
      now requires the purchase requisition and the purchase order to be
      completed once the initial quote is approved. This is to ensure that the
      obligation is established before the work is started.


OBSERVATIONS
In the aftermath of Hurricane Katrina, the immediate transportation of
commodities such as food and water was critical to save lives. The circumstances
surrounding that disaster were extraordinary and the Emergency Transportation
Center and the contractor provided an unprecedented response. For example, at
the time of our site visits, there were approximately 570 task orders against the
Landstar contract to provide emergency transportation services after Hurricane
Katrina.

We are in the initial stages of our assessment of the Landstar contract but had two
preliminary observations. First, better procedures were needed for evaluating
contractor price quotes. Second, better documentation of the actual amount of
goods or services provided was needed before authorizing invoices for payment.
We brought those issues to the attention of FAA Southern Region management,
which took immediate corrective action. The actions taken should improve
controls over forthcoming billings for services provided following Hurricane
Katrina. More importantly, the actions taken should significantly improve the
process for administering the contract during future emergencies.


New Documentation Requirements Should Provide Contracting
Officers With a Better Basis for Evaluating Price Quotes
During our initial visits, we observed that estimated price quotes were accepted by
FAA without requesting documentation from the contractor showing that the
prices were fair and reasonable. We statistically selected and reviewed 30 task
orders out of approximately 570 issued against the Landstar contract following
Hurricane Katrina. For all 30 task orders reviewed, we found that the contracting
officer accepted price quotes from the contractor even though no documentation
had been requested or provided to show that some type of price comparison
between suppliers had been conducted.
                                                                                    7


For example, for one task, FEMA requested transportation services to provide
vehicles and drivers to move 1,443 trailers from Atlanta, Georgia, to Baton Rouge,
Louisiana. The contracting officer agreed to a quoted price of almost $3 million
even though no documentation was requested to show that bids for services were
competitively obtained. Under provisions of the contract, Landstar solicits and
receives bids from transportation providers to provide the services required by the
task order.

FAA’s Acquisition Management System establishes the policies, guiding
principles, and internal procedures for acquiring goods, services, and property
needed to carry out the functions of FAA. One method provided by FAA’s
Acquisition Management System to ensure that prices are reasonable is to conduct
a market analysis survey. This analysis can be as informal as placing a telephone
call to obtain market pricing information and documenting the results in the
contract files.

During our site visit, the senior contracting officer stated that market surveys had
not been done because there was insufficient time. While Landstar may have done
a pricing comparison through soliciting bids, no documentation was included with
the price quotes submitted by the contractor. Without that documentation, the
contracting officer had no way of knowing that the prices quoted to the
Government were fair and reasonable. FAA Southern Region management took
corrective action and now receives copies from Landstar of its subcontractor price
quotes for each service bid, as well as Landstar’s justification for its selection. We
observed that this process had been implemented and was being followed for
initial disaster relief services after Hurricane Wilma. However, in our opinion,
this is only an interim solution. FAA Southern Region needs to consider other
methods for establishing a process for conducting more comprehensive price
comparisons during emergency relief efforts.

An internal review conducted by FAA’s Internal Control Division on October 20,
2005, after our initial visit, came to similar conclusions.               That review
recommended that the FAA Southern Region conduct a random sample of
taskings to determine the comparative market value and the reasonability of the
costs quoted. The review also recommended that the FAA Southern Region create
a system to track the costs of similar emergency transportation services provided
during disaster relief efforts to conduct a trend analysis of those costs.

Either solution would be acceptable. However, in our opinion, the most important
factor is for the Department to establish some type of system that will benchmark
price quotes for certain services to compare future quotes against before the next
emergency. We are recommending that the Department conduct a detailed market
survey in order to establish a baseline of prices for various transportation services
to use during the next emergency.
                                                                              8


Procedures Have Recently Been Established Requiring
Documentation To Support the Actual Amount of Goods or Services
Provided
During our site visits to FAA’s Southern Region, we observed that invoices were
authorized for payment without documentation to support the actual amount of
goods or services provided. At the time of our visit, only 6 tasks (out of
approximately 570) had invoices from the contractor that had been paid by FAA,
and those were for partial payments. However, payment on two of those tasks
resulted in overpayments to the contractor. For example, as detailed below, one
task (to provide buses for evacuating victims from New Orleans) resulted in an
overpayment to the contractor of approximately $32 million, which was promptly
repaid.

   • On September 4, 2005, Landstar issued a quote to provide 1,105 buses each
     day from August 31, 2005, through September 6, 2005, to transport victims
     of Hurricane Katrina from New Orleans to various locations (as required by
     FEMA) at a total estimated cost of $38,528,000.

   • On September 6, 2005, Landstar revised the quote to extend the services for
     an additional 30 days through October 7, 2005, as requested by FEMA, at
     an estimated total cost of $136,934,728. Landstar also submitted an invoice
     requesting $59,082,000 as partial payment for the extensive amount of
     services anticipated.

   • On September 23, 2005, FAA Southern Region paid the $59,082,000
     requested; however, the payment was made with no documentation
     showing the actual amount of services provided to that date.

   • On October 13, 2005, we met with the senior contracting officer and
     inquired about documentation to support invoices from the contractor. On
     the same day, the senior contracting officer contacted Landstar and
     requested documentation to support the partial payment made against the
     task order.

   • On November 7, 2005, Landstar provided the FAA Southern Region with
     documentation showing that the actual number of buses required by FEMA
     was substantially less than what the original task order had envisioned.
     According to Landstar, the total cost for actual services provided through
     October 7, 2005, was $27,081,859, which meant that the partial payment
     made by FAA Southern Region exceeded the total costs by $32,000,141
     ($59,082,000 – $27,081,859). Landstar also submitted a check to FAA for
     the overpayment on the same date.
                                                                                9


      Table. Landstar Contract Timeline of New Orleans Bus
                      Evacuation Services
  Date                            Action                             Charges/
                                                                     Payment/
                                                                    Adjustments
9/04/05    Landstar issues quote for to provide 1,105 buses each     $38,528,000
           day for Katrina evacuations between 8/31 and 9/6.
9/06/05    Landstar revises quote to extend the services by         +$98,406,728
           30 days through 10/07/05 as required by FEMA.            $136,934,728

9/06/05    Landstar invoices for partial payment due to the           $59,082,000
           extensive amount of services anticipated. FAA pays
           this amount on 9/23/05.
10/13/05   We met with the senior contracting officer and
           inquired about documentation to support invoices
           from the contractor. On the same day, the senior
           contracting officer contacted Landstar and requested
           documentation to support the partial payment made
           against the task order, which led to the subsequent
           recovery of Federal funds.
11/7/05    Landstar provides documentation showing the                $27,081,859
           services required by FEMA and the resulting costs
           incurred through 10/07/05 were much less than
           originally envisioned on the task order.
11/7/05    Landstar issues FAA a check for the difference             $32,000,141
           between the partial payment of $59,082,000 made on
           9/23/05 and the actual cost of services provided
           through 10/7/05 ($27,081,859).


In total, the contractor issued a check for $33,291,701 to FAA, which included
repayment against the task order for the bus services, as well as an overpayment
for another task order to provide chartered aircraft services.

We recognize that the circumstances surrounding the services that were needed for
evacuating hurricane victims from New Orleans were extraordinary. However, the
nature of those types of exigencies illustrates the need for careful and thorough
review of all associated paperwork after the emergency has passed. The example
of the bus services in New Orleans underscores the need to ensure that all pending
invoices are accompanied by some type of documentation that substantiates that
the goods and services were provided as billed.
                                                                                  10


In this instance, actions taken by the contractor to provide the requested
documentation identified the overpayment and led to the prompt recovery of
funds. The contract specifically allows the contracting officer to require the
contractor to provide adequate documentation for the goods and services actually
provided. Given the nature of the exigencies, we believed it was necessary for
FAA to establish that requirement as a standard policy and require documentation
for all goods and services actually provided.

We raised our concerns about establishing this requirement to the attention of
FAA Southern Region management on October 26, 2005, which took immediate
action. On October 27, 2005, the Manager of the Acquisitions Branch for the
Southern Region Logistics Division issued a directive requiring that all invoices
from the contractor be certified by Government personnel who can verify that the
work was performed or the contracting officer must obtain proof from Landstar
that the goods or services were provided.

During our site visit the week of November 28th, we observed that invoices from
Landstar were being reviewed and certified by personnel from the Emergency
Transportation Center and that Landstar was providing documentation, such as
subcontractor invoices, as proof of the services delivered.

The actions taken by FAA Southern Region management are a step in the right
direction and should significantly improve controls over forthcoming payments.
However, in our opinion, a permanent process needs to be established that links
the payment of invoices to receiving documentation certified by Government
personnel at the point where the service was provided. While we are making no
formal recommendation concerning this issue at this time, we plan to further
review the issue as we continue our internal control assessment.


RECOMMENDATION
We recommend that the Department conduct a detailed market survey to establish
a baseline of prices for various transportation services to compare future quotes
prior to the next emergency.


AGENCY COMMENTS
We provided OST with a copy of our draft management advisory on
November 30, 2005, and met with representatives from OST and FAA Southern
Region management on December 12, 2005. On December 15, 2005, OST
provided us with its formal response to our draft, which is contained in its entirety
in the Appendix.
                                                                                   11


OST partly concurred with our recommendation. According to OST, while there
is additional information that can be assembled to help FAA Southern Region
management and the Department better understand the reasonability of price
quotes in future emergency response situations, it would prefer to obtain data
through alternative means. In its response, OST stated that “a market survey is of
limited utility because it is not possible to know in advance of an emergency
situation, its location, scope, the resulting needs created, the impact on
transportation infrastructure, or the availability of transportation providers.”

According to OST, as an alternative, FAA Southern Region management is in the
process of creating a system to track the costs of like services actually provided, to
offer a benchmark for comparing future price quotes and for conducting trend
analysis. OST also stated that “while this approach is also limited by the variables
described above, it is nonetheless based on actual data accumulated during real
emergency situations and could potentially offer greater predictive value than data
based completely on assumptions.” FAA Southern region anticipates that this
system will initially be up and running by June 2006, in time for the next hurricane
season.


ACTIONS REQUIRED
We consider the Department’s planned actions responsive to the intent of our
recommendation. As we stated in the report, other solutions are acceptable, and
the most important factor, in our opinion, is for the Department to create some
type of system that establishes a benchmark of quotes for certain services to
compare future price quotes against before the next emergency. We consider the
recommendation resolved pending a June 2006 implementation date.

We appreciate the courtesy extended to our staff during our site visits to FAA’s
Southern Region. If you have any questions or need further information please
contract me at (202) 366-0500 or my Program Director, Dan Raville, at (202)
366-1405.

                                          #

cc: Assistant Secretary for Budget and Program/
     Chief Financial Officer
    Carolyn Blum, ASO-1
    Martin Gertel, M-1
                                                                                 12




EXHIBIT. SCOPE AND METHODOLOGY
This review was conducted in accordance with Generally Accepted Government
Auditing Standards prescribed by the Comptroller General of the United States
and included such tests as we consider necessary to provide reasonable assurance
of detecting abuse or illegal acts.

We performed our initial internal control assessment the week of October 11
through October 14, 2005, the week of October 24 through October 28, 2005, and
the week of November 28, 2005 through December 2, 2005. During this period,
we performed fieldwork at FAA Southern Region in Atlanta, Georgia, and various
FEMA warehouses and distribution centers in Louisiana, Mississippi, and Texas.

We interviewed officials from the FAA Southern Region Emergency
Transportation Center to discuss the nature of the Landstar contract and specific
provisions within the contract governing each party’s roles and responsibilities.
We also discussed how FEMA task orders are received, tracked, processed, and
paid.

We interviewed the manager of the FAA Southern Region’s Acquisitions Branch
and the senior contracting officer assigned to the contract to determine if FAA
logistics had developed standard operating procedures for (1) reviewing price
quotes provided by Landstar and (2) certifying invoices prior to payment.

We obtained a copy of the Excel spreadsheet maintained by the Emergency
Transportation Center to track FEMA task orders associated with disaster relief
during Hurricane Katrina. From the universe of approximately 570 task orders,
we drew a random, stratified statistical sample of 30 task orders. For each task
order in our sample, we reviewed the official task order file, as well as supporting
documentation in the file to determine if (1) Landstar provided a quote for the task
order, (2) the contracting officer reviewed and approved the quote, (3) there was
evidence of receipt of goods or services in the file, and (4) whether any invoices
had been received, certified, or paid.

We also observed daily operations at several FEMA warehouses and distribution
centers in Louisiana, Mississippi, and Texas to identify the controls in place over
the receipt of goods and services.




Exhibit. Scope and Methodology
                                13




APPENDIX. MANAGEMENT COMMENTS




Appendix. Management Comments
                                14




Appendix. Management Comments
                                15




Appendix. Management Comments
